Memorandum from the Office of the Inspector General



March 31, 2011

John J. McCormick, Jr., LP 3D-C

FINAL REPORT – INSPECTION 2010-13571 – REVIEW OF TVA'S RACCOON
MOUNTAIN FIRE PROTECTION SYSTEMS



As part of our annual inspection plan, we initiated a review of the fire protection systems at
the Raccoon Mountain Pumped-Storage Plant. In meeting with plant personnel, we were
informed that a review of the fire protection systems at the site had been completed by an
outside consultant, Marsh Risk Consulting, with their report being issued in July 2010.
The report included a number of recommendations for the plant to improve fire protection
at the site. Based upon this, we decided to perform a walkdown of the site and a limited
review of testing/inspection documentation for a sample of the fixed fire protection
systems at the site.

During our walkdown, we checked for accessibility of fire protection equipment and proper
sign-offs for monthly inspections of fire extinguishers and hoses. We noted no problems
during our walkdown.

Additionally, we reviewed three fixed fire protection systems at the site for proper
testing/inspections for a three-year period. We included the deluge system for the main
generator step-up transformer vault, the foam system for the visitors' elevator shaft, and
the halon system for the tool room in our review. The time period for our review was
2008-2010. We found no issues with the testing/inspections of the deluge or foam
systems; however, we did note a deficiency with the testing/inspection of the halon
system. National Fire Protection Association code 12A calls for semiannual
testing/inspections of halon fire extinguishing systems. However, for 2008 our review of
documentation showed that only one inspection was conducted for the halon system in
the tool room.

Despite the one identified deficiency with the testing/inspection of the halon system, in our
opinion, no further work in this area is warranted by our office at this time. This
memorandum does not include any recommendations and is to be used for informational
purposes only. Accordingly, no response is necessary. This review was conducted in
accordance with the "Quality Standards for Inspections."

Information contained in this memorandum may be subject to public disclosure. Please
advise us of any sensitive information in this report that you recommend be withheld.
John J. McCormick, Jr.
Page 2
March 31, 2011



If you have any questions, please contact Daniel C. Wright, Auditor, at (423) 785-4825 or
Greg R. Stinson, Director, Inspections, at (865) 633-7367. We appreciate the courtesy
and cooperation received from your staff during this review.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DCW:FAJ
cc: Michael B. Fussell, WT 9B-K
    Robert B. Wells, WT 9B-K
    Wendy Williams, WT 9B-K
    OIG File No. 2010-13571
